T   he Library of Congress
    Office of the Inspector General




Semiannual Report to the Congress
                       March 31, 2013
                                        INSIDE                    PLUS
                                        The Library and Flickr:    Rock & Roll Interviews
                                        A Photo Dialogue           March Madness, Then & Now
                                        Mary Pickford,
                                        Queen of the Movies        A Word from the Poet Laureate




                                                SUPPORTING
     LIBRARY OF CONGRESS MAGAZINE
     MARCH/APRIL 2013
                                                CONGRESS
                                                 Lawmakers and Their Library




                                                                                                   This semiannual report features the resources, ser-
                                                                                                   vices, collections, and exhibitions of the Library of
                                                                                                   Congress. The Library’s mission is to support the
                                                                                                   Congress in fulfilling its constitutional duties and to
                                                                                                   further the progress of knowledge and creativity for
                                                                                                   the benefit of the American people. The images con-
                                                                                                   tained in this report illustrate some of the ways that
                                                                                                   the Library accomplishes its mission.




Front and Back Covers: Various Images of the Resources, Services, Col-
lections, and Exhibitions of the Library of Congress.

Above: Cover of Recent Library of Congress Magazine.

Right: National Book Festival Web site Advertisement by Web-services.
March 31, 2013


Message From the Inspector General
In the last six months we prepared reports on efficient computing technologies, implementing
the Government Performance and Results Modernization Act, and the Library of Congress fiscal
year (FY) 2012 financial statements. During this period, investigations focused on stalking; theft
of Copyright deposits; misuse, attempted removal, and control of government computers; an
illegal lottery; and employee threats and disruption of government business. We also assisted
outside law enforcement organizations in various investigations. Finally, in the last six months,
we responded to two Congressional inquiries, oversaw the audit of the Council of the Inspectors
General on Integrity and Efficiency’s FY 2012 financial statements, and reviewed and commented
on the FY 2012 financial statements of the Charitable Trust for the Benefit of the Library of
Congress.

In the next six months, we will report on in-progress reviews of the acquisition and management
of collections, facilities, information technology planning and development, and other matters.

This period, the Office of the Inspector General (OIG) recovered $377,190 in stolen Library of
Congress property. The Library identified $47,408 in funds to be put to better use resulting from
a prior period OIG audit. The Library also implemented 18 of our recommendations from prior
semiannual periods.

Our publicly released reports are available online at www.loc.gov/about/oig. We appreciate the
cooperative spirit Library staff have shown during our reviews.




Karl W. Schornagel
Inspector General
Table of Contents


In Summary.......................................................................................................................................      1
Top Management Challenges......................................................................................................                        5
Profiles............................................................................................................................................   9

Audits, Surveys, and Reviews......................................................................................................                     13
   Efficient Computing Technologies......................................................................................................              13
       Government Performance and Results Modernization Act Implementation...........................................                                  15
       Library of Congress FY 2012 Financial Statements..............................................................................                  17
Investigations.................................................................................................................................        20
        Significant Criminal, Civil, and Administrative Investigations..............................................................                   21
        Follow-up on Investigative Issues from Prior Semiannual Report.........................................................                        24
Other Activities................................................................................................................................       25
        Congressional Inquiries...................................................................................................................     25
        CIGIE FY 2012 Financial Statements Audit Oversight..........................................................................                   25

        Trust Fund Financial Statements Commentary......................................................................................               26
Unimplemented Recommendations............................................................................................                              27
Implemented and Closed Recommendations............................................................................                                     35
Funds Questioned or Put to Better Use...................................................................................                               39
Instances Where Information or Assistance Requests Were Refused...............................                                                         40
Status of Recommendations Without Management Decisions...........................................                                                      40
Significant Revised Management Decisions...........................................................................                                    40
Significant Management Decisions with Which OIG Disagrees.......................................                                                       40
Follow-up on Prior Period Recommendations........................................................................                                      40
Organizational Chart..................................................................................................................                 41
Hotline Information.................................................................................................Inside Rear Cover




                                                                                                  Left Background: The Thomas Jefferson Building, Original
                                                                                                  Image by Carol Highsmith.

                                                                                                  Left Foreground: Twitter Advertisement by Web Services.
                 In Summary . . .
                 Audits, Surveys, and Reviews
                 During this period, we initiated an audit survey to determine whether the
                 Library is making efficient use of the Information Technology (IT) servers
                 it currently employs, and has taken steps to evaluate the feasibility of using
                 cloud computing to perform some of its information processing needs.

                 Our work revealed that the Library has taken steps toward improving server
                 efficiency. However, we found that the Library does not collect and maintain
                 the data needed to make informed management assessments regarding its IT
                 infrastructure. As a result, the Library cannot readily identify potential areas
                 for consolidation or areas where optimization through server virtualization
                 alternatives may be used.

                 Additionally, the Library has not made significant progress in addressing
                 recommendations from a 2011 consultant’s report to improve its existing
                 virtualization environment. The lack of progress in its virtualization
                 environment reduces potential savings from reduced energy, hardware, and
                 maintenance costs.

                 Further, the Library lacks an enterprise-wide cloud migration strategic plan
                 to guide management evaluations of possible IT service migrations to cloud-
                 based solutions. Without such a plan, the Library may miss opportunities
                 to improve its IT operational efficiency and achieve substantial savings.

                 Also in this semiannual period, we conducted an audit to evaluate
                 the Library’s progress in complying with the spirit of the Government
                 Performance and Results Modernization Act of 2010 (Modernization Act)
                 and reviewed the Library’s plans for enhancing its planning and budgeting
                 structure in fiscal year (FY) 2014.

                 We found that the Library has made significant progress in addressing the
                 spirit of the Modernization Act and that both senior level managers and
                 service units are demonstrating a strong commitment to the principles
                 of the Modernization Act. However, we noted that the Library needs to
                 improve the quality of performance target data and transparency initiatives
                 to comply with the Modernization Act’s intent.

                 Our review revealed that in one-third of the cases we sampled data was
                 not valid for measuring performance, and in more than half of the cases,
                 performance data was either inaccurate or incomplete. As a result, we
                 believe program performance assessments reported by those units were not
                 reliable.

1 • Semiannual Report to the Congress
We also believe the Library needs to improve and expand its performance
management reporting to fulfill Congress’ goal of increasing the transparency
of agency program results. Without full transparency into the Library’s
performance, agency management cannot successfully demonstrate its
program results and challenges.

The Library identified $47,408 in funds to be put to better use stemming
from an audit completed during the last semiannual period.

Lastly, under contract with our office, CliftonLarsonAllen, LLP, issued a
“clean” audit opinion on the Library’s FY 2012 financial statements.

These reports are further discussed beginning on page 13.

Investigations

During this reporting period, the Office of the Inspector General (OIG)
received a harassment complaint about an employee using their Library
computer to threaten a former acquaintance. The investigators presented the
case to the United States Attorney’s Office for prosecution and subsequently
arrested the employee for stalking and
violating the terms of a protective order.

In two separate incidents the United
States Capitol Police (Capitol Police)
stopped Library employees from removing
government laptops with forged property
passes.

The OIG hotline received an anonymous
call stating that a keyworker for the
Combined Federal Campaign was creating
fake participants to improve divisional
numbers. OIG confirmed the allegation
and referred the conduct to the Deputy
Librarian and the Office of General Counsel
as a potential ethics violation.

OIG received a complaint from a software
designer that received registration requests
for software submitted for copyright but
not yet publicly released. OIG tracked the
                                               Above and Opposite: Books that Shaped America, A Library of Congress
                                               Featured Exhibit.

                                                Semiannual Report to the Congress • 2
                                software from the Copyright Office (Copyright) to the Library’s Surplus
                                Books Program, where a clerk processes materials for donation or disposal.
                                Based upon evidence obtained from the clerk’s Library computer, the OIG
                                attained a search warrant and recovered $377,190 in software and govern-
                                ment property from the employee’s residence.

                                The Capitol Police notified the OIG of a suspected lottery. The OIG sub-
                                sequently discovered that 21 contract employees and their supervisors were
                                involved. We referred the matter to the Office of Contracts and Grants
                                Management who notified the contracting company. The contractor pro-
                                vided proof of its corrective actions, which included eliminating the lottery,
                                suspending the two supervisors, and conducting ethics and compliance
                                training for all employees and supervisors.

                                Copyright informed the OIG that its employees were receiving threats and
                                slanderous letters. The matter was referred to the Capitol Police, who pro-
                                vided guidance to the employees. The OIG also notified the local police
                                department where the threatening individual resides.

                                In 2012, numerous staff from Copyright notified the OIG of a nuisance
                                caller. The caller alleged that their copyright submission was mismanaged
                                regarding enforcement of infringed copyrights, royalties owed, and other is-
                                                              sues not within Copyright’s jurisdiction. In the
                                                              months before the investigation, the individual
                                                              called staff members multiple times a day in
                                                              addition to leaving more than 400 voice mail
                                                              complaints. Our review determined that there
                                                              was no evidence of wrongdoing by Copyright
                                                              staff and we referred the case to the Capitol Po-
                                                              lice. The OIG and the Capitol Police are con-
                                                              tinuing to coordinate with local law enforce-
                                                              ment.

                                                             The OIG hotline received a complaint of a theft
                                                             of a government issued laptop computer await-
                                                             ing disposal. The resulting investigation found
                                                             that three laptops were missing from a locked
                                                             storage container. One of the laptops was lo-
                                                             cated. We suggested to Library management a
                                                             more streamlined surplus equipment disposal
                                                             process to provide adequate safeguards. The
                                                             two remaining laptops have not been recov-
                                                             ered.
Above: To Kill a Mockingbird, a Novel by Harper Lee.

 3 • Semiannual Report to the Congress
The OIG assisted the U.S. Secret Service in locating and interviewing an
emotionally disturbed Library patron who threatened the President of the
United States, via email, from a reading room computer.

The Library was targeted by an outside party attempting to disrupt publicly
available information technology services. The OIG assisted the FBI’s inves-
tigation into this and similar attacks elsewhere on federal agencies.

Investigations efforts and follow-up on prior period cases are further
discussed beginning on page 20.

Other Activities

The OIG responded to a request from the Chairman and Ranking Member,
House Committee on Oversight and Government Reform. The request
asked OIG to identify high-priority recommendations to improve efficiency
and reduce waste and asked how Library management solicits input from
the OIG on improving efficiency and reducing waste.

The OIG oversaw the Council of the Inspectors General on Integrity and
Efficiency’s (CIGIE)’s FY 2012 financial statements audit. OIG’s oversight
included reviewing the contractor’s audit report, working papers, and
related documentation, and inquiring of its representatives. OIG found
no instances where the contracting firm did not comply, in all material
respects, with U.S. generally accepted government auditing standards. The
OIG also conducted an agreed upon procedures engagement to confirm the
CIGIE’s Sunshine Fund balance as of December 11th, 2012.

During this period, OIG reviewed the Charitable Trust for the Benefit of
the Library of Congress Trust Fund Board and affiliates’ financial statements
for the year ended December 31, 2011 and presented inquiries about the
Trust’s operations to the Trustee.

These activities are further discussed beginning on page 25.




                                               Semiannual Report to the Congress • 4
             Top Management Challenges
             This section provides a collective summary of issues that have been covered over
             several years of OIG reviews that, in our view, represent long-term challenges for
             the Library of Congress.

             Facilities

             Collections Storage—The Library currently faces a challenge in its mission
             to properly store and preserve its collections. The floors in the stacks of the
             Jefferson and Adams buildings are now being used to store the general collections
             and the Library is double- and triple-shelving materials. There are upwards
             of a million overflow volumes. The original construction schedule for Fort
             Meade collection storage modules would have provided space to house these
             collections and space for continuing expansion, but the last module intended to
             store general collections was completed in 2005 and filled in 2011. Modules 3
             and 4, completed in 2009, were intended for special format collections, which
             include items such as maps, globes, manuscripts, prints and photographs, sheet
             music, and more. The modules are now nearly filled to capacity. Only a few
             special format collections remain for transfer, with a small amount of space being
             allocated for “must sends,” new acquisitions that are automatically forwarded
             off-site. No funding has been appropriated for future modules at this time.

             The Library is currently addressing the overflow issue through a number of
             interim measures. Among these is the installation of shelving for high-density
             storage at its Landover warehouse to store an estimated 800,000 items, and an
             initiative to pursue alternative methods of shelving items on Capitol Hill to
             maximize capacity. As the Library adds about 250,000 books and periodicals to
             the collections each year, the shortage of space will continue to grow. Further
             exacerbating this issue is the lack of secure storage for some rare and valuable
             collections. The Law Library, and the Music and Asian Divisions, among others,
             have been forced to store some of their rare materials in less-than-optimal
             conditions from a security and environmental point of view.

             Reading Room Space Allocations—The Internet age has allowed the Library
             to increase public access to its collections by digitizing and placing them online.
             The Library, through various cutting-edge programs, including the National
             Digital Information Infrastructure and Preservation Program is at the forefront
             of preserving digital content. Today, the Library’s Web site, www.loc.gov, is
             among the Internet’s most visited, with billions of page hits annually, and
             unrivaled depth and richness of content. However, this shift in access modalities
             has resulted in a significant decrease in the in-person use of Library materials and
             resources.




5 • Semiannual Report to the Congress
Consequently, there is a significant amount of underutilized reading room space.
Despite the downward trend in readership, the Library has delayed making decisions
about possibly consolidating reading rooms. Better utilization of reading room space
could result in significant economy and efficiency by shifting space to collections
storage.

Conference and Training Rooms—An OIG audit identified an increasing number of
conference and training facilities in the Library’s James Madison Memorial Building.
In 2008 there were more than 120 such facilities in the building totaling more than
42,000 square feet which were, in many cases, underutilized. Consolidating and
centrally locating and managing conference and training rooms, as the Copyright
Office has done, would make a substantial contribution toward efficiency in the
Library’s use of floor space.

Information Technology Infrastructure

In 2009 we issued an audit report that focused broadly on the Library’s plan for
managing its IT infrastructure investments. The audit looked at 1) whether the
Library’s IT strategic plan aligned with its overall strategic plan, 2) the validity and
integrity of the IT plan, 3) the appropriateness and effectiveness of the Library’s
IT organizational structure and placement, and 4) the extent to which relevant
recommendations made by the National Research Council in a 2000 report were
implemented by the Library. We made a series of recommendations about
1) maturing the Library’s IT strategic planning process, 2) making IT investments
from a cost/benefit and institution-wide perspective, 3) considering organizational
changes, 4) implementing an enterprise architecture program for planning future
technology, and 5) improving customer service.                                             Below: For Whom the Bell
                                                                                           Tolls, by Ernest Hemingway.
             In FY 2010, the Library obligated $107 million for IT-related expenditures (37%
             of its discretionary budget) for services, hardware, software, and maintenance.
             We followed up on this report last year. In general, we found that the Library had
             implemented, or was implementing, most of our recommendations, although
             progress was slower than we had expected. We believe Library management’s
             continued focus on implementing these recommendations will result in
             substantial long-term efficiencies.

             In 2002, the Library opened a new Alternate Computing Facility (ACF). The
             purpose of the facility was to provide backup storage for data located on Capitol
             Hill and a recovery mechanism for important software applications so that the
             Library could resume business, at least in a limited capacity, in the absence of its
             Capitol Hill data center. In 2009, we reported that it was unclear whether or
             not the ACF could successfully provide service to its customers in the event of a
             catastrophic failure of the main data center. Since then, the Library has begun
             limited testing of the ACF. However, further testing is still needed to assure
             essential functions can be restored should the primary site become inoperable.
             As the Library’s financial system is now cross-servicing four external clients,
             delays in failover testing become increasingly important.

             One OIG report was issued during this semiannual period to address IT related
             management challenges. A detailed description of this work
             begins on page 13 of this report and it is publicly available at
             www.loc.gov/about/oig.

             Performance Reporting

             As a result of an OIG audit, and at the direction of Congress, the Library adopted
             a planning, budgeting, and management system based on the Government
             Performance and Results Act (GPRA). In its initial stages the Library established
             a GPRA-styled strategic planning process, linked its planning and budgeting
             to its strategic planning format, initiated GPRA-styled annual program plans,
             and introduced performance management to its workforce. The adoption of a
             GPRA-styled management approach will allow the Library to better analyze and
             report its activities and more successfully compete for diminishing discretionary
             funding.

             Recognizing that the Library has developed a robust planning and budgeting
             framework, it still has work to do to improve these processes. Following the
             lessons learned by the executive agencies’ GPRA experiences, Library management
             should be able to tailor its GPRA approach to fit its unique operations and
             maximize the benefits of its GPRA efforts.




7 • Semiannual Report to the Congress
In passing the GPRA Modernization Act of 2010 (the Modernization Act),
Congress made adjustments to assure that agencies more efficiently manage their
GPRA efforts, improve the quality of performance metrics, and clearly disclose
the accuracy of performance data. The Library has not yet developed a mechanism
for evaluating programs, provided a framework for assuring consistent, valid,
and verifiable metrics, or established a methodology to relate resource allocations
to program performance. To its credit, Library management is in the process
of designing a more comprehensive performance management approach for FY
2014 to address these challenges. To ensure success, the Library must design
and implement a GPRA framework that efficiently provides valid and reliable
performance metrics to support management decision-making.

During this period we reported on the Library’s progress to implement the spirit
of the Modernization Act. Details about our findings begin on page 15 and the
report is publicly available at www.loc.gov/about/oig.

Contracting

A series of OIG reports dating back to 2002 document weaknesses that have
beset the Library’s contracting function. Principal areas of concern include
questionable understanding of federal contracting by participants in the
contracting chain ranging from the service units to the contracting office,
poorly trained staff, a lack of continuity in leadership in the Office of Contracts
Management, a technically questionable financial system contracting module,
and ineffective contract review procedures. These deficiencies may prevent the
Library from obtaining the best value in contracts and expose the Library to an
unacceptably high risk of inefficiency and waste of funds.

Work we conducted during the March 2012 semiannual period concluded that
the weaknesses we have reported in the Library’s contracting function continue,
and in fact, the function has further deteriorated since our last report in 2008.

The Committee on House Administration conducted a hearing on our report
of the Library’s contracts function. Based on testimony and discussions with the
Deputy Librarian about management actions in response to our report, we believe
the Library is on its way to making substantial improvements to its contracting
activities. Total improvement in                                                      Left: Advertisement for
                                                                                      Buckaroos in Paradise, a
the Library’s contracting function                                                    Featured Exhibit at the
                                                                                      Library of Congress. Im-
is the only acceptable outcome.                                                       age by Web Services.

We will actively monitor and                                                          Opposite: Advertisement
                                                                                      for the Gibson Girl’s
report on progress in this area.                                                      America, a Featured
                                                                                      Exhibit at the Library of
                                                                                      Congress.
                                Profiles
                                Library of Congress
                                                                The Library of Congress is the research and
                                                                information arm of the United States’ national
                                                                legislature and the world’s largest storehouse
                                                                of knowledge. The mission of the Library is to
                                                                support the Congress in fulfilling its constitutional
                                                                duties and to further the progress of knowledge
                                                                and creativity for the benefit of the American
                                                                people. The mission is accomplished through
                                                                more than 4,000 employees and contractors, and
                                                                $800 million in annual appropriated funds and
                                                                other financing sources.

                                                            Founded in 1800, the Library of Congress is also
                                the nation’s oldest federal cultural institution, holding more than 155 million
                                items on 838 miles of shelves. These items include books, manuscripts,
                                maps, prints and photographs, printed music, sound recordings, films, and
                                microforms. Half of the Library’s collections are from outside the United
                                States, representing 470 languages. In addition to its three Capitol Hill
                                buildings and Taylor Street Annex in Washington, DC, the Library operates
                                six overseas offices and stores collections material in purpose-built facilities
                                in Maryland and at the National Audio Visual Conservation Center in
                                Culpeper, Virginia. Nearly 37.6 million original source analog items have
                                been digitized and are accessible at www.loc.gov. The Library also holds an
                                exponentially expanding collection of digital-born content.

                                The Library’s core organizational components are:

                                    •	    The Office of the Librarian,
                                    •	    Library Services,
                                    •	    The U.S. Copyright Office,
                                    •	    The Congressional Research Service,
                                    •	    The Law Library,
                                    •	    The Office of Strategic Initiatives, and
                                    •	    The Office of Support Operations.

                                The Office of the Librarian provides leadership and executive management
                                to the Library, overseeing the implementation and management of the
                                Library’s mission to support the Congress in fulfilling its constitutional
                                duties and to further the progress of knowledge and creativity for the benefit
                                of the American people.
Above: Century Theatre Advertisement Featuring Harry Houdini.

Right: Advertisement for Free Music Concerts at the Library of Congress.

 9 • Semiannual Report to the Congress
Library Services performs the traditional functions of a national library:
acquisitions, cataloging, preservation, and reference services for both digital
and conventional collections. It operates the National Library Service for
the Blind and Physically Handicapped and the American Folklife Center,
among other programs.

The U.S. Copyright Office administers the copyright laws of the nation and
registers copyrightable material; its deposits of intellectual material (books,
music, and movies) substantially contribute to the Library’s collections.

The Congressional Research Service supports the legislative process by
providing exclusively to Congress objective, confidential assessments of
public-policy issues, and legislative options for addressing those issues.

The Law Library assists Congress and the legislative process by supporting
comprehensive research on foreign, comparative, international and U.S.
law, and other legal reference services.

The Office of Strategic Initiatives directs the national program for long-
term preservation of digital cultural assets, leads a collaborative institution-
wide effort to develop consolidated digital future plans, and integrates the
delivery of IT services.

The Office of Support Operations provides centralized leadership and
oversight of infrastructure services and includes: Human Resources
Services, Integrated Support Services, the Office of Security and Emergency
Preparedness, and the Office of Opportunity, Inclusiveness, and Compliance.

Last year, services provided by the Library included:

    •	   Fulfilling 540,489 reference requests,
    •	   Circulating 25 million disc, cassette, and Braille items to more 		
	        than 800,000 blind and physically handicapped patrons,
    •	   Registering 511,539 copyright claims,
    •	   Receiving 22,000 items daily and adding more than 10,000 items 	
	        daily to 	its collections,
    •	   Responding to more than 700,000 congressional reference requests 		
	        and delivering to Congress more than 1 million research products and
	        approximately 30,000 volumes from the Library’s collections, and
    •	   Providing to Congress access to more than 8,100 reports on 		
	        legislative issues and preparing more than 3,200 tailored analyses.

The Library of Congress also recorded 87 million visits and 545 million
page-views of its primary source files on its Web site, and received 1.7
million on-site visitors.
                                                 Semiannual Report to the Congress • 10
                             Office of the Inspector General

                             The establishment of statutory federal Inspector Generals began in 1978 to
                             create and empower independent audit and investigative organizations to
                             focus on fraud, waste, and abuse within federal agencies. The Library of
                             Congress OIG was established in 1988 as a non-statutory office deriving
                             its authority from the Librarian of Congress. The OIG became statutory
                             with the passage of the Library of Congress Inspector General Act
                             of 2005, with a mandate to:

                                 •	     Conduct and supervise audits and
                             	          investigations relating to the Library of Congress,
                                 •	     Lead, coordinate, and recommend policies to
                             	          promote economy, efficiency, and effectiveness, and
                                 •	     Keep the Librarian of Congress and the Congress
                             	          fully and currently informed about problems and
                             	          deficiencies relating to the administration and
                             	          operations of the Library of Congress.

                             The IG is a member of the Council of the Inspectors General
                             on Integrity and Efficiency (CIGIE), a unified council of all
                             federal statutory Inspectors General, and serves on the council’s Audit,
                             Investigations, and Legislation Committees.

                             This Semiannual Report to the Congress is a part of the OIG’s statutory
                             reporting requirement and is organized to address the major functions of
                             the office including:

                                 •	     Significant audits, investigations, and other reviews and activities 	
                             	          of the OIG,
                                 •	     Review of legislation and regulations affecting the Library, and
                                 •	     Library decisions on OIG recommendations and the status of 	
                             	          implementation, along with any resulting monetary benefits.

                             Audits are in-depth reviews that address the efficiency, effectiveness, and
                             economy of the Library’s programs, activities, and functions; provide
                             information to responsible parties to improve public accountability;
                             facilitate oversight and decision-making; and initiate corrective action as
                             needed.




Above: The Civil War in America, A Landmark Exhibition at the
Library of Congress.
 11 • Semiannual Report to the Congress
Some audits address whether financial statements fairly present financial
positions, results of operations, and cash flows. They also assess whether an
entity has adequate internal control systems and complies with applicable
laws and regulations. The OIG also performs related types of reviews such
as inspections and attestations.

Investigations are typically based on alleged or suspected wrongdoing by
agency employees, contractors, or others responsible for handling federal
resources. Violations of Library regulations or fraud committed against
the Library can result in administrative sanctions and criminal or civil
prosecution. Contact information for the OIG Hotline is located on the
inside rear cover of this report.

Our staff is educated and certified in various disciplines. We are, collectively,
five certified public accountants (CPA), one attorney, one certified internal
auditor (CIA), two certified information systems auditors (CISA), one
certified computer examiner (CCE), one access data certified examiner
(ACE), one certified forensic accountant (CFA), two seized computer
evidence recovery specialist (SCERS), three special agents, an investigator,
and other highly qualified staff.

OIG reports are available at www.loc.gov/
about/oig.




                                                Above: With Malice Toward None: The Abraham Lincoln Bicenten-
                                                nial Exhibition at the Library of Congress.
                                                 Semiannual Report to the Congress • 12
                                 Audits, Surveys, and Reviews
                                 Library-Wide
                                 Information Technology Services
                                 The Library has an Opportunity to be More Proactive
                                 in Adopting More Efficient Cloud Computing Technologies

                                 Audit Report No. 2013-IT-101
                                 March 2013

                                 During this time of severe fiscal constraint, the Library of Congress, like
                                 all federal agencies, must continuously be alert to opportunities to reduce
                                 the costs of its operations. Server virtualization and cloud computing are
                                 technologies that have emerged in prominence in recent years, and would
                                 likely increase the efficiency of the Library’s information technology (IT)
                                 infrastructure, while yielding substantial savings in associated hardware,
                                 energy, and maintenance costs.

                                 We initiated an audit survey to determine whether the Library is making
                                 efficient use of the IT servers it currently employs, and has taken steps
                                 to evaluate the feasibility of using cloud computing to perform some
                                 of its information processing needs. Our survey work revealed that the
                                 Library has taken steps toward improving server efficiency by converting,
                                 over the past 7 years, 7.6 percent of its physical servers to a more efficient
                                 virtualization configuration. However, the Library can do more.

                                 Our findings indicate that the Library is missing opportunities to achieve
                                 significant cost savings.

                                                               The Library Needs to Make More Progress
                                                               with Server Virtualization to Achieve Greater
                                                               Cost Savings—The Library does not collect and
                                                               maintain the data needed to make informed
                                                               management assessments regarding its IT
                                                               infrastructure. Specifically, it does not 1) collect
                                                               data on efficiency levels of servers, 2) maintain
                                                               comprehensive server inventory data in a central
                                                               repository, and 3) continuously track data on the
                                                               power used by its data center. As a result, the
                                                               Library cannot readily identify potential areas for
                                                               consolidation or areas where optimization through
                                                               server virtualization alternatives may be used.

Above: Literacy Awards, a Featured Competition at the
Library of Congress.

Opposite Top: By the People for the People, Posters from the
Works Progress Administration, 1936-1943.

 13 • Semiannual Report to the Congress
Further, the Library has not made significant progress with addressing
recommendations from a 2011 consultant’s report to improve its existing
virtualization environment. Particularly, the Library has not achieved a
significant level of server virtualization as envisioned and recommended in
the report. The consultant’s report addressed weaknesses in the Library’s IT
environment by making recommendations to improve server virtualization,
provide decision-making criteria for selecting both virtualization and
cloud computing options, and provide cost efficient solutions to support
the Library’s expanding charter and storage needs. The lack of further
progress in its virtualization environment minimizes potential savings from
reduced energy, hardware, and maintenance costs. We recommended that
Information Technology Services (ITS) collect the data to make informed
IT assessments of its infrastructure and report to the Deputy Librarian its
progress on adopting the recommendations from the consultant’s report.

The Library Needs to Develop an Enterprise-wide Plan to Evaluate Use
of Cloud Computing and Achievable Cost Savings—The Library lacks
an enterprise-wide cloud migration strategic plan (enterprise-wide plan) to
guide management evaluations of possible IT service migrations to cloud-
based solutions. Without such an enterprise-wide plan, the Library may
miss opportunities to improve its IT operational efficiency and achieve
substantial savings. At a minimum, the Library’s enterprise-wide plan
should include determining milestones and targets to measure progress,
risks involved, required resources, and a retirement plan for legacy systems.
We recommended that the Library create an enterprise-wide plan to guide
management decisions on migrating to cloud-based solutions and instruct
ITS to take the lead in initiating evaluations of viable cloud computing
solutions.

We issued a report at the end of our audit survey since the Library has made
some progress on its server virtualization infrastructure but has not adopted
a cloud computing initiative. In the future, we will revisit the Library’s
progress with implementing cloud computing technologies.

Management concurred with three of our four recommendations. They
consider the implementation timeline in the consultant’s report unrealistic
and do not consider the consultant’s recommendations as the basis for the
Library’s implementation plan for virtualization.

                                               Semiannual Report to the Congress • 14
                 Library-Wide

                 Working Toward the Spirit of the Government
                 Performance and Results Modernization Act

                 Audit Report No. 2013‐PA‐101
                 March 2013

                 A primary purpose of the Government Performance and Results Act
                 (GPRA) of 1993 was to improve the confidence of the American people in
                 the capability of the federal government by holding agencies accountable
                 for achieving program results. Congress enhanced GPRA with the GPRA
                 Modernization Act of 2010 (Modernization Act), which focuses on two
                 key areas to improve agency performance management—verifying and
                 validating performance data, and providing transparency to Congress and
                 stakeholders about agency performance. GPRA initially applied only to
                 executive branch agencies, but Congress subsequently directed legislative
                 branch agencies to comply with the spirit of the act and embrace its
                 performance management principles.

                 The Deputy Librarian announced a new planning and budgeting structure
                 starting in FY 2014 that expands the Library’s performance management
                 approach. This new framework will continue to require service units to
                 link their annual program objectives to the strategic plan and to report on
                 program results with performance targets. The reliability, accuracy, and
                 validity of performance data remains the cornerstone of the performance
                 process.

                 Our objective was to evaluate the Library’s progress in complying with the
                 spirit of the Modernization Act. We also reviewed the Library’s plans for
                 enhancing its planning and budgeting structure beginning with its
                 FY 2014 Congressional Budget Justification.

                 Our report provided the results of the latest OIG review of the Library’s
                 implementation of the performance management principles explained in
                 GPRA and the Modernization Act. This is the third in a series of audits
                 on this topic.

                 We found that the Library has made significant progress in addressing the
                 spirit of the Modernization Act and that both senior level managers and
                 service units are demonstrating a strong commitment to the principles of
                 GPRA and the Modernization Act. However, we noted that the Library
                 needs to improve the quality of performance target data as previously
                 reported in our March 2010 report, Managing in the Spirit of GPRA:



15 • Semiannual Report to the Congress
Developing Credible Performance Data is the Next Step. Additionally, to meet
the Modernization Act’s transparency goals, the Library should include in
its performance reporting more information about performance targets not
achieved. Following is a summary of our findings and recommendations.

The Library Needs to Improve the Quality of Performance Target
Data—We reviewed the FY 2012 annual program performance plans and
assessments of three Library service units. Our review revealed that the
quality of performance data that those units collected and used to support
their program performance strategies varied significantly. In one-third of
the cases we sampled, data was not valid for measuring
performance. In more than half of the sampled cases,
performance data was either inaccurate or incomplete.
As a result, we believe program performance assessments
reported by those units were not reliable.

We recommended that the Library improve the validity
and reliability of its performance measurements by
revising service unit requirements for verifying and
validating performance data, and expanding the
Strategic Planning Office’s role in documenting and
vetting performance data.

The Library Needs to Strengthen Its Transparency
Efforts—Our review of the Library’s FY 2012
performance reporting found that the public and
stakeholders do not have access to all of the Library’s
performance management plans and results. We
believe the Library needs to improve and expand its
performance management reporting to fulfill Congress’
goal of increasing the transparency of agency program
results. Without full transparency into the Library’s
performance, agency management cannot successfully
demonstrate its program results and challenges.

We recommended that the Library expand its disclosures to include unmet
annual program targets, including corrective actions it plans to achieve in
succeeding periods.

Management concurred with all of our findings and recommendations.



                                             Above: Coast to Coast, The Federal Theatre Project, A Featured
                                             Exhibit at the Library of Congress.


                                              Semiannual Report to the Congress • 16
                                 Library of Congress

                                 Fiscal Year 2012 Financial Statements

                                 Audit Report No. 2012-FN-101

                                 We are pleased to report that for the 17th consecutive year, the Library
                                 has received a “clean” opinion on its consolidated financial statements.
                                 Under contract with our office, the independent accounting firm of
                                 CliftonLarsonAllen, LLP (CLA), audited the Library’s FY 2012 consolidated
                                 financial statements. In the auditor’s opinion, the financial statements,
                                 including the accompanying notes, present fairly, in all material respects,
                                 the financial position of the Library and its net costs, changes in net
                                 position, and budgetary resources for the year then ended, in conformity
                                 with accounting principles generally accepted in the United States.

                                 The auditor’s consideration of internal controls over financial reporting
                                 (including the safeguarding of assets) resulted, however, in the identification
                                 of a significant deficiency. The auditors noted multiple exceptions in internal
                                 controls within the procurement and contracting area of the Library that
                                 when aggregated, are considered to be a significant deficiency. The auditors
                                 found no instances of noncompliance with laws and regulations or other
                                 matters requiring reporting under generally accepted government auditing
                                 standards.

                                 For this financial statements audit, we performed the following steps to
                                 ensure the quality of CLA’s work:

                                   •	 Reviewed the auditor’s approach and planning of the audit,
                                   •	 Reviewed significant workpapers,
                                   •	 Evaluated the qualifications and independence of the 			
                                 	auditors,
                                   •	 Monitored the progress of the audit at key points,
                                   •	 Coordinated meetings with Library management to
                                 	    discuss progress, findings, and recommendations,
                                   •	 Performed other procedures we deemed 					
                                 	    necessary, and
                                   •	 Reviewed and accepted CLA’s report.




Right: In 1815 James Madison approved an act of Congress appropriating
$23,950 for the acquisition of Thomas Jefferson’s library of 6,487 volumes.
Jefferson’s Library is a Featured Exhibit at the Library of Congress.

 17 • Semiannual Report to the Congress
Semiannual Report to the Congress • 18
Above: Maps in Our Lives, a Featured Exhibit at the Library of Congress.

 19 • Semiannual Report to the Congress
Investigations
During this reporting period, we opened 45 investigations and closed 30. We forwarded three investigations
to Library management for administrative action. One investigation was forwarded to the Department of
Justice for criminal prosecution and none are pending. Investigation case and hotline activities are detailed
below.


 Table 1: 	        Investigation Case Activity
                                  Criminal/Civil           Administrative                 Total
 From Prior Reporting Period            30                        1                        31
 Opened                                 35                       10                        45
 Closed                                 24                        6                        30


 End of Period                          41                        5                        46


 Table 2: 	        Hotline Activity
                                                                 Count
 Allegations received                                                 23
 Referred to management                                               4
 Opened as investigations                                             13
 Opened as audit                                                      0
 Closed with no action                                                6




                                                                 Semiannual Report to the Congress • 20
                 Significant Criminal, Civil, and
                 Administrative Investigations

                 Employee Misconduct

                 The Office of the Inspector General (OIG) received a harassment complaint
                 about an employee using their Library computer to threaten a former ac-
                 quaintance. After investigating the allegation, OIG investigators presented
                 the case to the United States Attorney’s Office for prosecution. The case was
                 accepted, and over the course of several months the investigators swore and
                 executed nine search warrants and issued twelve Grand Jury subpoenas. The
                 employee was subsequently arrested and indicted for stalking from a federal
                 facility and violating the terms of a protective order. Both of these viola-
                 tions are prohibited under the Violence Against Women Act. The prosecution
                 is ongoing.

                 Theft of Copyright Deposits

                 OIG received a complaint from software designer, Autodesk, Inc. that they
                 were receiving registration requests for software submitted for Copyright
                 but not yet publicly released. OIG tracked the Autodesk, Inc. software
                 from Copyright to the Library’s Surplus Books Program, where a clerk
                 processes copyrighted materials, such as books and electronic media, for
                 donation or disposal. Instead of disposing of the Autodesk, Inc. software
                 (the Library does not acquire software for its collections), or donating the
                 books, the clerk sold the items online. Based upon evidence obtained from
                 the employee’s Library computer, the OIG obtained a search warrant for
                 the clerk’s residence and recovered more than $377,000 in government and
                 Autodesk, Inc. property.

                 The employee pled guilty in the Federal District Court for the District of
                 Columbia and was sentenced to three years probation, four months home
                 confinement, 100 hours of community service, and more than $1,000 in
                 fines.

                 Attempted Removal of Government Property

                 The United States Capitol Police (Capitol Police) referred a matter to the
                 OIG concerning property pass forgery and an employee attempting to re-
                 move a government laptop computer. The Capitol Police stopped the em-
                 ployee and noticed that the property pass used lacked an expiration date.
                 The officer sent the employee back to obtain the expiration date from an
                 authorized person. The employee returned a few minutes later with the ex-



21 • Semiannual Report to the Congress
piration date completed. The officer questioned the employee because the
officer did not believe the employee obtained the expiration date informa-
tion from an authorized person. The employee initially denied completing
the pass, but later admitted the forgery. The OIG referred the matter to the
employee’s manager. A five-day proposed suspension is pending.

In a separate case, an employee attempting to remove a government laptop
computer without a valid property pass was stopped by the Capitol Police.
With the same property pass, the employee attempted to leave via another
building exit and was stopped at that post. The matter was referred to the
OIG, who notified the employee’s management team. The employee re-
ceived a formal counseling letter.

Ficticious Combined Federal Campaign Participants

The OIG hotline received an anonymous call stating that a keyworker for
the Combined Federal Campaign was creating fake participants and paying
cash for these donations to improve divisional participation numbers. OIG
referred the matter to the Deputy Librarian and the Office of the General
Counsel as an ethics violation. The Office of the General Counsel issued a
memorandum concurring with the OIG’s assessment of the incidents and
outlining the corrective actions to be taken by the division director.
The division director verbally counseled the key worker, and destroyed
                                                      the falsified forms.

                                                     On-Site Lottery
                                                     Operation

                                                     The Capitol Police
                                                     notified the OIG of
                                                     their belief that two
                                                     contractor employees
                                                     were participating in
                                                     a “tanda,” or lottery
                                                     operation common in
                                                     Latin America. The
                                                     OIG discovered that
                                                     the tanda involved
                                                     twenty-one contrac-
                                                     tor employees and
                                                     their supervisors. Each
                                                     employee contributed
                                                     $100 a week for 21
                                                     Left: Meeting of Frontiers, a Featured Exhibit at the Library
                                                     of Congress.

                                              Semiannual Report to the Congress • 22
                 weeks with each employee receiving the lottery funds once. The matter was re-
                 ferred to the Office of Contracts and Grants Management who notified the con-
                 tracting company. The contractor provided proof of their corrective actions,
                 which included eliminating the lottery, suspending the two supervisors, remov-
                 ing one supervisor from the contract, and conducting ethics and compliance
                 training for all employees and supervisors.

                 Copyright Mail Threat

                 The Copyright Office (Copyright) informed the OIG that its employees were
                 receiving a series of vaguely threatening and slanderous letters. The matter was
                 referred to the Capitol Police Threat Analysis Division, which provided guidance
                 to the employees on how to handle threatening correspondence. Additionally,
                 the OIG notified the local police department where the threatening individual
                 resides and the police met with the letter writer to discourage future threats.

                 Disruption of Government Business

                 In 2012, numerous staff from Copyright notified the OIG of a nuisance caller.
                 The caller alleged that their copyright submission was mismanaged regarding
                 enforcement of infringed copyrights, royalties owed, and other issues not under
                 the purview of Copyright. In the months before the investigation, the individual
                 called staff members multiple times a day in addition to leaving more than 400
                 voice mail complaints.

                 The OIG interviewed Copyright management and staff and researched staff ap-
                 plication processing requirements. We determined that there was no evidence
                 of wrongdoing by Copyright staff. The OIG supplied this evidence to the caller
                 but they were not deterred by the results of the investigation or a cease and desist
                 letter. When ITS blocked the caller in January 2013, the caller anonymously
                 made 300 more calls containing harassing and abusive language. OIG referred
                 the case to the Capitol Police Threat Analysis Division. Coordination with local
                 law enforcement is ongoing.

                 Recovery of Laptop on Loading Dock

                 The OIG received a complaint of the theft of a government-issued laptop com-
                 puter awaiting disposal. The investigation found that there were three laptops
                 missing from the locked storage container holding the computers. One of the
                 laptops was recovered and although forensic analysis determined that there was
                 no Library sensitive data on the computer, we suggested a more streamlined sur-
                 plus equipment disposal process to provide adequate safeguards. The two remain-
                 ing laptop computers have not been recovered.




23 • Semiannual Report to the Congress
Referrals and Assistance to Other Law Enforcement Agencies

After the presidential inauguration, the OIG assisted special agents from the
United States Secret Service in locating and interviewing an emotionally dis-
turbed patron who threatened the President, via email, from a Library reading
room computer. The agents recommended counseling services.

The OIG assisted the Capitol Police in arresting a Library employee with an out-
standing warrant for domestic violence. The arrest was without incident.

In December 2012, the Library was targeted by an outside party attempting to
make the Library’s public network resources unavailable to users. The OIG as-
sisted with the coordination between the Library and the FBI in addressing this
denial of service attack.

Follow-Up on Investigative Issues from Prior
Semiannual Reports

Securiguard Settlement Payment Begins

In our September 30, 2012 Semiannual Report to the Congress, we reported on
overbilling by the Library’s security contractor,
Securiguard, Inc. (Securiguard). Working with
the United States Attorney for the District of
Columbia, OIG investigators successfully dem-
onstrated their case and Securiguard agreed to
pay a $1 million settlement. During this semian-
nual period, the initial installment of $242,500
was received from Securiguard.

Misuse of Library Computer

In our September 2012 report, we stated that the
Library’s Security Operations Center informed
the OIG that an employee’s computer was re-
peatedly accessing Web sites containing por-
nography, and possibly child pornography. An
OIG investigation confirmed that the employee
regularly accessed inappropriate Web sites con-
taining adult pornography and nudity using the
Library’s resources. In response to these findings,
the employee served a 30-day suspension by do-
nating 30 days of annual leave to the Library’s
Leave Bank.
                                                      Above: May 2011 Cover of the Library of Congress Publication, Information
                                                      Bulletin, Featuring the Miley Collection.

                                                       Semiannual Report to the Congress • 24
                 Other Activities
                 Inspector General Responds
                 to Congressional Inquiries
                 December 2012

                 The OIG responded to a request from Representative Darrell E. Issa, Chair,
                 and Representative Elijah E. Cummings, Ranking Member, House Com-
                 mittee on Oversight and Government Reform, about information on open
                 and unimplemented OIG recommendations, and recommendations with
                 estimated cost savings. The Congressmen requested that OIG identify and
                 report on the three most important open and unimplemented recommen-
                 dations, and the number of recommendations accepted and implemented
                 by the Library since April 2011.

                 In a separate inquiry, Representative Issa requested information about
                 OIG reporting to the Congress about serious or flagrant Library issues.

                 Council of the Inspectors General
                 on Integrity and Efficiency Fiscal Year
                 2012 Financial Statements Audit Oversight
                 November 2012

                 The OIG oversaw the Council of the Inspectors General on Integrity and
                 Efficiency’s (CIGIE)’s FY 2012 financial statements audit. CIGIE con-
                 tracted with the independent public accounting firm of Martin & Wall
                 (M&W), a division of Chortek & Gottschalk, LLP to conduct the audit.

                 M&W issued an unqualified (clean) opinion on CIGIE’s FY 2012 financial
                 statements, finding that they were fairly presented, in all material respects,
                 in conformity with U.S. generally accepted accounting principles. Also,
                 M&W did not find any deficiencies in internal control over financial re-
                 porting that they considered to be material weaknesses or significant defi-
                 ciencies, or instances of noncompliance with laws and regulations tested.

                 OIG’s oversight included reviewing M&W’s report, workpapers, and
                 related documentation, and inquiring of its representatives. OIG’s re-
                 view found no instances where M&W did not comply, in all material
                 respects, with U.S. generally accepted government auditing standards.
                 The OIG also conducted an agreed upon procedures engagement
                 to confirm the CIGIE Sunshine Fund balance as of December 11,
                 2012. OIG conducted the agreed upon procedures engagement in ac-
                 cordance with generally accepted government auditing standards.



25 • Semiannual Report to the Congress
The CIGIE Sunshine Fund is a voluntary fund that accepts donations
from CIGIE and federal employees for purchasing food and bever-
ages for meetings conducted at the CIGIE headquarters in Washing-
ton, DC. The results of OIG’s engagement determined that the Fund
amount on hand was in agreement with the account balance records.



Charitable Trust for the Benefit of the
Library of Congress Trust Fund Board
2011 Financial Statements
December 2012

Created in 1987, the Charitable Trust for the Benefit of the Library of
Congress Trust Fund Board (the Trust) is a supporting organization of the
Library of Congress. In conjunction with the Leonore S. Gershwin (wife of
Ira Gershwin) 1987 Trust, its mission is to perpetuate the works of Ira and
George Gershwin. The Trust is funded with a percentage of Leonore S. Ger-
shwin’s estate residual and makes annual distributions to the Library. The
assets of the Trust are to be distributed to the Library 50 years from the date
of death (1987) of Ira Gershwin or earlier at the discretion of the trustee.
As part of its oversight role, the OIG, in addition to the Office of the Chief
Financial Officer and the Office of the General Counsel, reviews the annual
financial statements of the Trust and its affiliates and presents inquiries about
the Trust’s operations to the Trustee. During this period, OIG received the
Trust’s and its affiliates’ financial statements for the year ended December
31, 2011. OIG submitted questions and comments regarding the Trust’s
activities during that period to the trustee and received his responses.




                                                Above: Logos for Congressional Research Services and the
                                                Law Library.

                                                 Semiannual Report to the Congress • 26
Unimplemented Recommendations
Table 4A: 	    Significant Recommendations from Previous Semiannual
               Reports for Which Corrective Action Has Not Been Completed
       Subject             Report No.        Office          Rec. No.              Summary and Status of
                           Issue Date                                                Recommendation
Office of the Librarian (LIBN)
                                                                        System managers for Raiser’s Edge should regularly
                                                                        review the system’s transaction logs for suspect data
                                                                        events—The Library’s current solution for log man-
Raiser’s Edge             2006-IT-302     Development                   agement requires customization to monitor Raiser’s
                                                                III
Software Program         December 2007       Office                     Edge. FY 2013 funding is unavailable for this or
                                                                        an alternative log management solution. Library
                                                                        management defers action on this until the second
                                                                        quarter of FY 2014.
                                                                        Create a policy using Internal Revenue Service
                                                                        (IRS) rules to properly classify workers as indepen-
                                                                        dent contractors or employees and require service
                                                                        units to submit documentation on the test to the
                                                                        Office of Contracts Management for nonperson-
                         2010-PA-105      Office of the                 al contract services—The Office of the General
Multi-Sector Workforce                                         III.1
                         March 2011      General Counsel                Counsel assesses the IRS behavioral, financial, and
                                                                        relationship factors for contracts with individuals
                                                                        over $25K. Library-wide training will be com-
                                                                        pleted by the fourth quarter of FY 2013 along with
                                                                        revising the form to request contracts with indi-
                                                                        viduals to reflect IRS factors.
Office of Support Operations (OSO)
                                                                        The Library should determine if centralizing tele-
                                                                        working policy-making authority in a Telework
                                                                        Coordinator would add value to the program—In
                                                                        March 2013, the Human Capital Planning Board
                         2010-PA-102     Office of Support              (HCPB) presented recommendations to the Li-
Telework Program                                               I.1
                          June 2011         Operations                  brary’s Operating Committee (OC) to establish a
                                                                        permanent steering committee to review telework
                                                                        policies, practices, and recommend enhancements.
                                                                        A decision on this recommendation is targeted for
                                                                        the fourth quarter of FY 2013.
                                                                        The Library should collect data on, and evaluate
                                                                        the costs and benefits of, teleworking to determine
                                                                        whether it provides a cost-effective means to per-
                         2010-PA-102     Office of Support
Telework Program                                               I.3      form specific work requirements—The Library has
                          June 2011         Operations
                                                                        data on telework utilization. The HCPB drafted a
                                                                        revised telework regulation for OC review. A deci-
                                                                        sion is targeted for the fourth quarter of FY 2013.
                                                                        The Library should develop a telework health and
                                                                        safety checklist and incorporate it into its telework
                                                                        agreement forms—The HCPB recommended a
                         2010-PA-102     Office of Support
Telework Program                                               I.4      health and safety checklist that prospective tele-
                          June 2011         Operations
                                                                        workers would be required to complete as part of
                                                                        the telework application process. The target date for
                                                                        implementation is the fourth quarter of FY 2013.




 27 • Semiannual Report to the Congress
Table 4A: 	    Significant Recommendations from Previous Semiannual
               Reports for Which Corrective Action Has Not Been Completed
        Subject        Report No.        Office          Rec. No.              Summary and Status of
                       Issue Date                                                Recommendation
                                                                    The Library should develop an interactive telework
                                                                    training program and require teleworkers and their
                       2010-PA-102   Office of Support              managers to successfully complete it before begin-
 Telework Program                                          I.5
                        June 2011       Operations                  ning telework—Human Resources Services’ target
                                                                    date for implementing an interactive telework train-
                                                                    ing program is the fourth quarter of FY 2013.
                                                                    The Library should revise Library of Congress Regu-
                                                                    lation (LCR) 2014-8 to address the permissibility
                                                                    of accessing sensitive, unclassified, and “For Official
                                                                    Use Only” data at offsite locations—The HCPB’s
                       2010-PA-102   Office of Support
 Telework Program                                          I.6      proposed revised telework regulation would pro-
                        June 2011       Operations
                                                                    hibit the removal of classified information and sen-
                                                                    sitive, personally identifiable information from Li-
                                                                    brary premises. The target date for implementation
                                                                    is the fourth quarter of FY 2013.
                                                                    The Library should review positions to determine
                                                                    whether they are prone to telework and do not cre-
                       2010-PA-102   Office of Support              ate an additional burden on other areas—HCPB’s
 Telework Program                                          II.1
                        June 2011       Operations                  proposed telework regulation is targeted for imple-
                                                                    mentation by the fourth quarter of FY 2013 and
                                                                    includes a review of position suitability for telework.
                                                                    The Library should institute policies requiring the
                                                                    availability of teleworkers by email, telephone, and
                                                                    in person when needed, including the use of remote
                       2010-PA-102   Office of Support              call coverage for positions involving frequent tele-
 Telework Program                                          II.2
                        June 2011       Operations                  phone use—HCPB’s proposed telework regulation
                                                                    is targeted for implementation by the fourth quarter
                                                                    of FY 2013 and includes the recommended tele-
                                                                    worker availability requirement.
                                                                    The Library should require employees who are ex-
                                                                    pected to telework during a Continuity of Opera-
                                                                    tions (COOP) event to have adequate training, in-
                                                                    frastructure support, and practice—The HCPB has
                       2010-PA-102   Office of Support
 Telework Program                                         IV.1.a    included the Office of Security and Emergency Pre-
                        June 2011       Operations
                                                                    paradness (OSEP) in integrating COOP planning
                                                                    with telework planning, polices, and practices. The
                                                                    target date for implementation is the fourth quarter
                                                                    of FY 2013.
                                                                    The Library should have a telework agreement in
                                                                    place that provides for a COOP event—The HCPB
                       2010-PA-102   Office of Support              has included OSEP in integrating COOP planning
 Telework Program                                         IV.1.b
                        June 2011       Operations                  with telework planning, polices, and practices. The
                                                                    target date for implementation is the fourth quarter
                                                                    of FY 2013.
                                                                    The Library should incorporate teleworking scenar-
                                                                    ios in the Library’s COOP exercises—The HCPB
                       2010-PA-102   Office of Support              has included OSEP in integrating COOP planning
 Telework Program                                          IV.2
                        June 2011       Operations                  with telework planning, polices, and practices. The
                                                                    target date for implementation is the fourth quarter
                                                                    of FY 2013.



                                                              Semiannual Report to the Congress • 28
Unimplemented Recommendations
Table 4A: 	      Significant Recommendations from Previous Semiannual
                 Reports for Which Corrective Action Has Not Been Completed
       Subject           Report No.         Office           Rec. No.              Summary and Status of
                         Issue Date                                                  Recommendation
Office of Contracts Management (OCM)
                                                                        Establish a support component to ensure effective
                                                                        and efficient performance of critical functions that
                                                                        support the OCM. The position should be staffed
                                                                        with a senior, experienced General Schedule (GS)
Weaknesses in the        2011-SP-106   Office of Contracts              1102, Grade 14—The Office of the General Coun-
                                                               I.A.1
Acquisition Function     March 2012      Management                     sel (OGC) now provides policy support to OCM
                                                                        with no plans to hire another GS-14 due to cur-
                                                                        rent fiscal constraints. The new director of OCM
                                                                        will reevaluate this decision by the first quarter of
                                                                        FY 2014.
                                                                        Rewrite the Contracts Operating Instructions
                                                                        (COI) manual deleting those policies that merely
                                                                        restate the Federal Acquisition Regulation and draft
                                                                        specific guidance geared toward the Library’s acqui-
Weaknesses in the        2011-SP-106   Office of Contracts
                                                               I.A.2    sition activities. Organize the COI so that it is easily
Acquisition Function     March 2012      Management
                                                                        accessible—The review of the COI is complete and
                                                                        a plan to revise or eliminate each COI is progress-
                                                                        ing. The new Director of OCM will review and ap-
                                                                        prove the COI by the first quarter of FY 2014.
                                                                        Fill the Director slot with a permanent, qualified,
                                                                        and experienced acquisition professional. This will
                                                                        signal the importance of the acquisition function
Weaknesses in the        2011-SP-106   Office of Contracts              within the Library and provide much-needed guid-
                                                               I.B.1
Acquisition Function     March 2012      Management                     ance and leadership to the OCM—The vacancy an-
                                                                        nouncement for this position closed March 4, 2013.
                                                                        The review of applicants is in progress. The target
                                                                        date for selection is the third quarter of FY 2013.
                                                                        Rewrite COI 1003 to be a more comprehensive
                                                                        oversight policy and contract review process— The
Weaknesses in the        2011-SP-106   Office of Contracts              review of the COI is complete and a plan to revise or
                                                               I.F.2
Acquisition Function     March 2012      Management                     eliminate each COI is progressing. The new Direc-
                                                                        tor of OCM will review and approve the COI by the
                                                                        first quarter of FY 2014.
                                                                        Develop directives that clearly set forth the policy
                                                                        and constraints for using Library of Congress Regu-
                                                                        lation (LCR) 2111—OGC is working on revisions
                                                                        to LCR 2111 and its accompanying Form 52. Once
Weaknesses in the        2011-SP-106   Office of Contracts              the LCR is approved for implementation, OCM
                                                              II.G.1
Acquisition Function     March 2012      Management                     will issue guidance that clearly sets forth the policy
                                                                        and constraints. Training has been conducted with
                                                                        OCM to ensure that they understand the intent of
                                                                        this authority. The target date for issuing the LCR
                                                                        is the fourth quarter of FY 2013.
                                                                        Restructure the Alert Handbook into a series of
                                                                        user-friendly, PowerPoint customer service training
                                                                        packages directed at two levels, executive leadership
                                                                        and service units—Training plans for service units
Weaknesses in the        2011-SP-106   Office of Contracts
                                                              III.B.1   include classroom presentations, online courses, and
Acquisition Function     March 2012      Management
                                                                        resources on the OCM website; the new Director
                                                                        of OCM will determine handbook revisions. New
                                                                        training will be implemented by the first quarter of
                                                                        FY 2014.

29 • Semiannual Report to the Congress
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
       Subject            Report No.           Office           Rec. No.                Summary and Status of
                          Issue Date                                                      Recommendation
                                                                             Develop a procurement process standard operating
                                                                             procedure (SOP) so that customers understand that
                                                                             a good procurement package includes a statement
                                                                             of work, market research, independent government
                                                                             cost estimate, and the evaluation factors used in
Weaknesses in the         2011-SP-106     Office of Contracts                the evaluation process. The SOP should include a
                                                                 III.B.4
Acquisition Function      March 2012        Management                       procurement package checklist—Training plans for
                                                                             service units include classroom presentations, online
                                                                             courses, and resources on the OCM website; the
                                                                             new Director of OCM will determine handbook
                                                                             revisions. The new training will be implemented by
                                                                             the first quarter of FY 2014.
                                                                             OCM and the Office of the Chief Financial Officer
                                                                             (OCFO) should update directives to officially reflect
                          2011-SP-101     Office of Contracts                the current spending limit for micro purchases of
Improper Payments II                                               I.2
                           May 2011         Management                       $3,000—The directive was reviewed last year; addi-
                                                                             tional revisions are in process by OCFO with a tar-
                                                                             get implementation date of third quarter FY 2013.
Human Resources Services (HRS)
                                                                             Develop and implement a structured procedure that
                                                                             provides a uniform method for making in/outsource
                                                                             personnel determinations. This procedure should
                                                                             provide the means to identify which activities are
                                                                             inherently governmental and which service provider
                                                                             represents the best value to the Library—An HCPB
                          2010-PA-105     Human Resources
Multi-Sector Workforce                                              I        working group is developing recommendations to
                          March 2011         Services
                                                                             guide service units in multi-sector workforce plan-
                                                                             ning via a structured procedure, including a means
                                                                             to identify inherently governmental activities and
                                                                             determine best value to the Library. Approval and
                                                                             implementation are targeted for the fourth quarter
                                                                             of FY 2013.
Office of Opportunity, Inclusiveness, and Compliance (OIC)
                                                                             Evaluate and revise LCR 2010-3.1—LCR 2010-3.1
                                                                             has been revised and approved, but requires union
                                               Office of
Equal Employment                                                             negotiation to implement. The Library is pursuing
                          2001-PA-104       Opportunity,
Opportunity                                                         I        alternatives, including a legislative initiative to move
                          February 2003   Inclusiveness, and
Complaints Office                                                            the equal employment opportunity process out of
                                             Compliance
                                                                             the Library. This would affect the requirement to
                                                                             bargain the LCR. Target date is unkown.
                                                                             Office of Opportunity, Inclusiveness, and Compli-
                                                                             ance, in collaboration with the Library’s Human
                                                                             Capital Management Flexibilities Working Group
                                                                             should complete the barrier identification and elim-
                                                                             ination process initiated with the Multi-Year Affir-
Follow-Up Review of the                        Office of
                                                                             mative Employment Program Plan by assessing the
Office of Opportunity,    2011-PA-106       Opportunity,
                                                                 II.2.b      success of the plan—HCPB received the findings of
Inclusiveness, and Com-    June 2011      Inclusiveness, and
                                                                             the Library’s demographic workforce profile in July
pliance                                      Compliance
                                                                             2012, with recommendations for further review of
                                                                             the Multi-Year Affirmative Employment Program
                                                                             Plan, including barrier identification and elimina-
                                                                             tion. Final assessment is targeted for the third quar-
                                                                             ter of FY 2013.

                                                                        Semiannual Report to the Congress • 30
Unimplemented Recommendations
Table 4A: 	      Significant Recommendations from Previous Semiannual
                 Reports for Which Corrective Action Has Not Been Completed
        Subject          Report No.          Office          Rec. No.              Summary and Status of
                         Issue Date                                                  Recommendation
Library Services (LS)
                                                                        Establish criteria for specifically defining Top Trea-
                                                                        sure collection items and a clear process to nominate
                                                                        or transfer collection items to the category—A draft
Top Treasures Security                                                  LCR on Top Treasures circulated to stakeholders pro-
                          2008-PA-103
and Preservation                          Library Services      I.a     duced security concerns leading to alternative consid-
                          January 2009
Controls                                                                eration of a confidential directive. The new Director
                                                                        of Preservation and the new Chief of Conservation
                                                                        are assessing the alternatives with a target date for the
                                                                        decision in the fourth quarter of FY 2014.
                                                                        Update LCR 1816 to include designing a serialized
                                                                        document that is counterfeit resistant, reassigning
                                                                        the responsible office to ensure oversight, document-
                                                                        ing accountability, and implementing procedures to
                                                                        more appropriately account for and retire used passes.
                          2010-PA-106
Surplus Books Program                     Library Services     I.c.1    Revise the LCR to implement a pass designed for spe-
                         September 2011
                                                                        cific Surplus Books Program (SBP) use—Revisions to
                                                                        LCR 1816 to simplify the pass system and accom-
                                                                        modate collections and other capitalized/accountable
                                                                        property is targeted for implementation in the fourth
                                                                        quarter of FY 2013.
                                                                        SBP management should implement the use of a
                                                                        software application to collect and analyze program
                                                                        operating data—SBP management has presented In-
                          2010-PA-106
Surplus Books Program                     Library Services     II.a.1   formation Technology Services (ITS) with a high-level
                         September 2011
                                                                        requirements document for automation of SBP func-
                                                                        tions. The ITS target for implementation is the first
                                                                        quarter of FY 2014.
                                                                        LS management should collect the required data to
                                                                        conduct an analysis to determine whether the Library
                                                                        derives tangible benefits from processing other agen-
                          2010-PA-106                                   cies’ surplus material transfers—SBP moved back to its
Surplus Books Program                     Library Services     II.c.1
                         September 2011                                 permanent space in March 2013. SBP has not accepted
                                                                        transfers from other agencies since October 2011 and
                                                                        expects to keep that policy in effect. The final decision
                                                                        is targeted for the first quarter of FY 2014.
                                                                        Design and implement an internal control system that
                                                                        will ensure that valid and verifiable data will be col-
                                                                        lected and used to measure program performance—LS
                                                                        started work on this recommendation in FY 2011 and
Performance-based         2010-PA-107
                                          Library Services     II.2     continued in FY 2012. Action is on hold pending
Budgeting                 January 2011
                                                                        guidance from the Librarian’s Office on Library-wide
                                                                        planning and budgeting structure changes. Target date
                                                                        for resumption and completion is the first quarter of
                                                                        FY 2014.




 31 • Semiannual Report to the Congress
Table 4A: 	      Significant Recommendations from Previous Semiannual
                 Reports for Which Corrective Action Has Not Been Completed
        Subject              Report No.      Office       Rec. No.              Summary and Status of
                             Issue Date                                           Recommendation
 Office of Strategic Initiatives (OSI)
                                                                     All information technology (IT) costs including com-
                                                                     puter security should be accounted for as part of the IT
                                                                     budgetary process—The Office of the Librarian con-
 Information                                Information              tinues its information resources management (IRM)
                             2011-IT-103
 Technology Strategic                       Technology      I.2.C    plan implementation and IT spending and invest-
                            December 2011
 Planning Follow-up                           Services               ment reviews. The results of these reviews will deter-
                                                                     mine whether any organizational or resource allocation
                                                                     changes are warranted. ITS was unable to supply a tar-
                                                                     get date.
                                                                     Separate the IT support functions from the Office of
                                                                     Strategic Initiatives (OSI) and establish the Office of
                                                                     the Chief Information Officer (CIO) from the ITS
                                                                     Directorate and other IT support functions of OSI.
                                                                     The CIO will report directly to the Librarian or Chief
 Information                                Information
                             2011-IT-103                             Operating Officer with duties, responsibilities, and au-
 Technology Strategic                       Technology      I.3.A
                            December 2011                            thority consistent with best practices—The Office of
 Planning Follow-up                           Services
                                                                     the Librarian continues its IRM plan implementation
                                                                     and IT spending and investment reviews. The results
                                                                     of these reviews will determine whether any organi-
                                                                     zational or resource allocation changes are warranted.
                                                                     ITS was unable to supply a target date.
                                                                     Implement service level agreements (SLAs) to man-
 Information                                Information              age customer expectations—ITS is in the process of
                             2011-IT-103
 Technology Strategic                       Technology      I.5.A    determining what tasks will be required to imple-
                            December 2011
 Planning Follow-up                           Services               ment meaningful and effective SLAs. The target
                                                                     completion date is the third quarter of 2013.
                                                                     Rather than offering the new help desk system as an
                                                                     interface, ITS should require all technology offices
                                                                     throughout the Library to use a standard help desk
 Information                                Information              system to take advantage of economies of scale—
                             2011-IT-103
 Technology Strategic                       Technology     I.5.D     ITS continues to work closely with service units to
                            December 2011                            leverage the centralized, shared solution for help
 Planning Follow-up                           Services
                                                                     desk management. ITS plans to integrate the re-
                                                                     maining service units as resources are made available
                                                                     with a target date of the first quarter of FY 2015.
                                                                     Develop a set of metrics for ongoing use to mea-
                                                                     sure performance. These metrics should change and
 Information                                Information              evolve over time as one area shows improvement;
                             2011-IT-103                             new metrics should be developed for other areas—
 Technology Strategic                       Technology      I.5.F    ITS is determining what tasks will be required to
                            December 2011
 Planning Follow-up                           Services               implement meaningful and effective metrics to
                                                                     measure customer service performance. The target
                                                                     completion date is the third quarter of FY 2013.
                                                                     Conduct regular customer surveys and open infor-
 Information                                Information              mational meetings—ITS is in the process of deter-
                             2011-IT-103                             mining what tasks are required to develop meaning-
 Technology Strategic                       Technology      I.5.G
                            December 2011                            ful and effective metrics to measure customer service
 Planning Follow-up                           Services               performance. The target date for completion is the
                                                                     third quarter of FY 2013.




                                                               Semiannual Report to the Congress • 32
Unimplemented Recommendations
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
       Subject               Report No.         Office     Rec. No.              Summary and Status of
                              Issue Date                                           Recommendation
Office of Strategic Initiatives (OSI) Continued
                                                                      Coordinate with service and support units to iden-
                                                                      tify and prioritize the legacy systems/applications
                                                                      that require certification and accreditation (C&A)
Information                                  Information              evaluations, and determine how the required evalu-
                          2011-IT-103
Technology Strategic                         Technology      II.1     ations should be funded—ITS proposed changes to
                         December 2011                                LCR-1620 to address the C&A of legacy systems
Planning Follow-up                             Services
                                                                      and those changes are under OGC review. Target
                                                                      date for implementation is the third quarter of FY
                                                                      2013.
                                                                      ITS improve its communications and transparency
                                                                      with service and support units by keeping them in-
                                                                      formed about IT equipment which is available in in-
Information                                  Information              ventory—The implementation of asset management
                          2012-PA-101                                 capabilities within the ITS service management
Technology Workstation                       Technology      I.1
                         September 2012                               system will provide complete transparency into the
Management                                     Services               hardware inventory available through the personal
                                                                      computer store. The target implementation date
                                                                      is the first quarter of
                                                                      FY 2014.
                                                                      ITS work in consultation with the Budget Office
                                                                      and the OGC to establish a procedure that ensures
                                                                      that ITS purchases of IT equipment will conform
                                                                      to restrictions of the bona fide needs rule—OGC,
                                                                      OCFO, and ITS will work together to ensure a bet-
Information                                  Information              ter understanding of the bona fide needs rule.  OGC
                          2012-PA-101
Technology Workstation                       Technology      I.3      began this initiative by providing training to Con-
                         September 2012                               tracts Office staff on fiscal law requirements, includ-
Management                                     Services
                                                                      ing the bona fide needs rule. OGC and OCFO will
                                                                      work to assist ITS in developing a process to verify
                                                                      that purchases comply with the bona fide needs rule.
                                                                      The target implementation date is the third quarter
                                                                      of FY 2013. 




 33 • Semiannual Report to the Congress
Above: Statewide Library Project, Works Progress Administration,
Chicago, Illinois.

 Semiannual Report to the Congress • 34
Implemented and Closed Recommendations
Table 4B: 	     Significant Recommendations from Previous Semiannual Reports
                Which Were Implemented or Closed During This Period
        Subject            Report No.         Office           Rec. No.          Summary of Recommendation
                           Issue Date                                                   and Action
Office of Support Operations (OSO)
Office of Contracts Management (OCM)
                                                                          Strengthen the oversight process by putting a more
                                                                          rigorous Contract Review Board (CRB) process in
Weaknesses in the          2011-SP-106   Office of Contracts              place—A formal review process with increased au-
                                                                 I.F.1
Acquisition Function       March 2012      Management                     thority and accountability for the Chair of the CRB
                                                                          has been implemented and enforced by the Acting
                                                                          Director of OCM.
                                                                          Institute a set of controls to ensure COI 1002, Acqui-
                                                                          sition Planning Policy, is adhered to—Coordinated
Weaknesses in the          2011-SP-106   Office of Contracts              action by the Deputy Librarian, and OCM manage-
                                                                II.A.1    ment has focused on improving Library compliance
Acquisition Function       March 2012      Management                     with acquisition planning policy. The Acting Direc-
                                                                          tor of OCM monitors compliance and takes correc-
                                                                          tive action where needed.
                                                                          Utilize performance-based acquisition methodolo-
                                                                          gies as a method to promote thinking in terms of
Weaknesses in the          2011-SP-106   Office of Contracts              outcomes and deliverables—Performance-based
                                                                II.H.2
Acquisition Function       March 2012      Management                     contracting methodologies have been discussed with
                                                                          service units during acquisition planning and is used
                                                                          when appropriate.
                                                                          Ensure that the contracting officer and management
                                                                          carefully review the use and exercise of options—
Weaknesses in the          2011-SP-106   Office of Contracts              Management has reduced the number of contracting
                                                                 II.I.2   officers to ensure options are only approved by the
Acquisition Function       March 2012      Management                     most experienced contract specialists. OCM supervi-
                                                                          sors and CRB members ensure these actions are done
                                                                          correctly.
                                                                          Ensure Momentum is properly configured to meet
Weaknesses in the          2011-SP-106   Office of Contracts              contracting specialists’ needs—There is an ongoing
                                                                 II.J.I   effort to review the needs of contract specialists and
Acquisition Function       March 2012      Management                     the requested Momentum changes have been com-
                                                                          pleted.
                                                                          Modify Momentum acquisitions to create all of the
Weaknesses in the          2011-SP-106   Office of Contracts              different types of contract documents needed—This
                                                                 II.J.2   is an ongoing effort with the Blanket Purchase Agree-
Acquisition Function       March 2012      Management                     ment being the most recent example of adding a con-
                                                                          tract type in the Momentum acquisitions module.
                                                                          Develop an automated tool to enable customers to
                                                                          quickly and easily track progress of their requisitions
                                                                          and to further promote effective communication—
Weaknesses in the          2011-SP-106   Office of Contracts              Actions have been taken to ensure customers are
                                                                III.A.4
Acquisition Function       March 2012      Management                     informed and engaged in the procurement process.
                                                                          Library management stated that the cost of creating
                                                                          a new automated system is not justified with the cur-
                                                                          rent fiscal constraints.
                                                                          Develop a knowledge center in a SharePoint environ-
                                                                          ment for the acquisition workforce, providing them
                                                                          with a single point of entry to Web sites, electronic
                                                                          tools, reporting, templates, policy, people, organiza-
Weaknesses in the          2011-SP-106   Office of Contracts              tions, wikis, blogs, and discussion groups relevant to
                                                                III.D.1   their mission—The OCM Web site currently serves
Acquisition Function       March 2012      Management                     as a knowledge center for providing acquisition guid-
                                                                          ance, templates, and forms to customers. The current
                                                                          effort to improve performance emphasizes direct con-
                                                                          versations rather than relying on electronic commu-
                                                                          nications.

35 • Semiannual Report to the Congress
Table 4B: 	   Significant Recommendations from Previous Semiannual Reports
              Which Were Implemented or Closed During This Period
        Subject         Report No.      Office      Rec. No.      Summary of Recommendation
                         Issue Date                                        and Action
                                                                             HRS and OCM should enhance information they
                                                                             collect and maintain on employees and contractors
                                                                             and develop internal control procedures to identify
                              2011-SP-101      Office of Contracts           situations where a conflict of interest may exist—To
Improper Payments II                                                  II
                               May 2011          Management                  identify situations where a conflict of interest may
                                                                             exist service units have been trained to enter, update,
                                                                             and review employee and non-employee data in the
                                                                             National Finance Center Person Model.
Office of Opportunity, Inclusiveness, and Compliance (OIC)
                                                                             Revise LCR 2020-7 to allow complainants to use
                                                    Office of                dispute resolution during the formal complaint pro-
                              2002-PA-104        Opportunity,                cess—Revised LCR 2020-7, “Alternative Dispute
Dispute Resolution Center                                             III
                             September 2003    Inclusiveness, and            Resolution Process for Non-Bargaining Unit Em-
                                                  Compliance                 ployees” was approved by the Executive Committee
                                                                             and issued on November 3, 2012.
Library Services (LS)
                                                                             National Library Service for the Blind and Physi-
                                                                             cally Handicapped (NLS) should explore the cost/
                                                                             benefits of testing digital talking book machine
                                                                             (DTBM) inventories as part of its periodic site vis-
                              2011-PA-104
NLS Requirements                                Library Services      V      its to network regional libraries to ensure that the
                              October 2011
                                                                             machines provided to the agencies are being appro-
                                                                             priately accounted for—Effective October 1, 2012,
                                                                             NLS incorporated the DTBM inventory review into
                                                                             all consultant visits.
                                                                             Create and maintain a perpetual inventory listing
                                                                             of all Congressional franking labels on hand with
                                                                             management periodically physically inventorying
                              2010-PA-106                                    the labels—Franking labels are kept in a locked file
Surplus Books Program                           Library Services     I.b.2
                             September 2011                                  cabinet and currently manually inventoried.  ITS
                                                                             expects Surplus Books Program automation will
                                                                             follow completion of Web Duplicate Materials Ex-
                                                                             change Program project automation.
Office of Strategic Initiatives (OSI)
                                                                             The Library should develop a cost-benefit analysis
                                                                             (analysis of alternatives) process for all IT invest-
Information Technology                            Information
                              2011-IT-103                                    ments and include risk criteria—ITS published
Strategic Planning                                Technology         I.2.D
                             December 2011                                   requirements, standards, and templates for cost
Follow-up                                           Services                 benefit analysis on the Project Management Office
                                                                             intranet site.
                                                                             The Library should develop a methodology to maintain
                                                                             and track all Library IT expenses—Recommendation
                                                                             closed. Library management stated that it prevents du-
Information                                       Information                plicative IT spending through its IT investment man-
                             2011-IT-103 De-
Technology Strategic Plan-                        Technology         I.2.E   agement, enterprise architecture (EA), and other gover-
                               cember 2011
ning Follow-up                                      Services                 nance programs and maintains their approach is more
                                                                             effective. OIG agrees with closing this recommenda-
                                                                             tion based on new budget functionality provided by the
                                                                             Clarity7 system.




                                                                        Semiannual Report to the Congress • 36
Implemented and Closed Recommendations
Table 4B: 	     Significant Recommendations from Previous Semiannual Reports
                Which Were Implemented or Closed During This Period

        Subject                Report No.          Office       Rec. No.         Summary of Recommendation
                                Issue Date                                              and Action
Office of Strategic Initiatives (OSI) Continued
                                                                           Include all EA costs in a single budget line item for
                                                                           the entire Library to avoid creating a burdensome
                                                                           or costly process for system owners—Recommenda-
Information                                       Information
                            2011-IT-103                                    tion closed. Library management states the overhead
Technology Strategic                              Technology     I.4.D
                           December 2011                                   cost to create a separate cost center for EA exceeds
Planning Follow-up                                  Services
                                                                           the benefit. OIG agrees with closing this recom-
                                                                           mendation based on new budget functionality pro-
                                                                           vided by the Clarity7 system.
                                                                           Develop an LCR that establishes the responsibilities
Information Technology                            Information              of the Architecture Review Board—New LCR 1600,
                            2011-IT-103
Strategic Planning                                Technology      III.3    “Information Resource Management Policy and Re-
                           December 2011
Follow-up                                           Services               sponsibilities” was issued on October 3, 2012. See
                                                                           section 8.A., Architecture Review Board.
                                                                           ITS ensure that Integrated Support Services (ISS)
                                                                           distributes IT equipment items based on first-in,
Information                                       Information              first-out methodology—ITS implemented a first-
                            2012-PA-101
Technology Workstation                            Technology      I.2      in, first-out methodology for the distribution of IT
                           September 2012
Management                                          Services               equipment. In addition, periodic inspections of the
                                                                           inventory held in Landover will help to ensure that
                                                                           this methodology is followed.
                                                                           ITS and ISS work in collaboration to sanitize the
                                                                           hard disks of all Library computers declared to be
                                                                           excess property, and ensure that the computers are
                                                                           subsequently donated to the Computers for Learn-
Information                                       Information
                            2012-PA-101                                    ing program in a timely manner—ISS cleans and of-
Technology Workstation                            Technology      II.1
                           September 2012                                  fers all Library computers that are under three years
Management                                          Services
                                                                           of age and support Windows 7 to the Computers for
                                                                           Learning Program. All computers and laptops that
                                                                           do not meet newer operating system requirements
                                                                           now have their hard drives degaussed and destroyed.
                                                                           ITS and ISS work in collaboration to identify and
                                                                           implement an efficient and effective solution for
                                                                           sanitizing the hard disks of excess computers be-
                                                                           fore the computers are delivered to the Landover
                                                                           warehouse for further out-processing—Computers
Information                                       Information              deemed incapable of running currently supported
                            2012-PA-101
Technology Workstation                            Technology      II.2     operating systems will be declared excess property
                           September 2012
Management                                          Services               and ITS will remove and degauss the hard drives
                                                                           from all of these machines. ITS is working with
                                                                           ISS to establish a suitable location and to set up the
                                                                           equipment necessary to carry out this process. The
                                                                           target date for implementation is the third quarter
                                                                           of FY 2013.




37 • Semiannual Report to the Congress
Above: Words Like Sapphires, 100 Years of Hebraica, Featured Exhibit at
the Library of Congress.


 Semiannual Report to the Congress • 38
       Funds Questioned or Put to Better Use
        Table 5:	         Audits with Recommendations for Better Use of Funds
                                                                               Number of Audit    Total Funds Put
                                                                                  Reports          to Better Use
        No management decision was made by the start of the period:                    -                 -

        Issued during the period:                                                      -                 -
        In need of management decision during the period:                              -                 -
        Management decision made during the reporting period:
                                                                                                              *
                 Value of recommendations agreed to by management                      1              $47,408

                 Value of recommendations not agreed to by management                  -                  -

        No management decision made by the end of the reporting period:
                                                                                       -                 -
                 Less than 6 months old:
                                                                                       -                 -
                 More than 6 months old:




        Table 6:	         Audits with Questioned Costs
                                                                               Number of Audit       Total Ques-
                                                                                  Reports           tioned Costs

        No management decision made by the start of the period:                        -                  -

        Issued during the period:                                                      -                  -
        In need of management decision during the period:                              -                  -
        Management decision made during the reporting period:

                 Value of recommendations agreed to by management                      -                  -

                 Value of recommendations not agreed to by management                  -                  -

        No management decision made by the end of the reporting period:

                 Less than 6 months old:                                               -                  -

                 More than 6 months old:                                               -                  -



       *Office of Strategic Initiatives, Information Technology Services: Inadequate Contract Oversight Exposed
       the Library to Questionable Contractor Payments, Audit Report No. 2011-PA-109, March 2012 (see page
       19 of our March 2012 Semiannual Report). The Library has made an initial request for this amount to be
       returned, but further review is being done of this and other applicable task orders.




39 • Semiannual Report to the Congress
Instances Where Information or
Assistance Requests Were Refused
No information or assistance requests were refused during this period.

Status of Recommendations
Without Management Decisions
During the reporting period, there were no recommendations more than six months old without
management decisions.

Significant Revised Management Decisions
During the reporting period, there were no significant revised management decisions.

Significant Management Decisions
with Which OIG Disagrees
During this reporting period, there were no significant management decisions with which OIG disagreed.

Follow-up on Prior Period Recommendations
In this semiannual period, we followed-up on all open recommendations from our prior semiannual pe-
riod. Management’s comments on the status of individual recommendations appear in table 4A. Recom-
mendations management asserts it has implemented during the period appear in table 4B. In order to
confirm that recommendations have been implemented as reported, we perform periodic follow-up on
selected projects to verify implementation; however, all assertions contained in table 4B are the representa-
tions of management.




                                                               Above: Compelling Topics, Igniting Conversations Iluuminating
                                                               Minds, Featured Exhibit at the Library of Congress.


                                                                 Semiannual Report to the Congress • 40
OIG Organizational Chart




                                                                   Inspector General
                    Counsel to the IG                              Karl W. Schornagel
                                                                   CPA                                         Administrative Officer
                    E. Wade Green, Jr.
                                                                                                               Sheetal Gupta
                    (Under Interagency Agreement)
                    (Part-Time)




                    Assistant Inspector
                                                                                                            Assistant Inspector
                    General for Audits
                                                                                                            General for Investigations
                    Kurt W. Hyde
                    CPA                                                                                     Vacant




Senior Lead Auditor                        Auditor                                                           Special Agent in Charge
John R. Mech                               Elizabeth Valentin                                                 Thomas E. Williams
CPA                                        CPA, CISA                                                          CCE, ACE, SCERS



Auditor                                    Auditor                                      Special Agent                                 Special Agent
Walter E. Obando                           Christine C. Cochrane                        Hugh D. Coughlin                              Pamela D. Hawe (Part-time)
CIA, CISA                                  CPA, CFA



Management Analyst                         Management Analyst                           Management Analyst                           Investigator
Sarah E. Sullivan                          Jennifer R. Bosch                            Michael R. Peters                             Barbara A. Hennix
                                                                                                                                      (on Detail to Library Services)



                                                                                                             Special Agent
                                                                                                              Donald Lyles (Part-time, Temporary)
                                                                                                              SCERS




41 • Semiannual Report to the Congress
Inspector General Hotline

    Help Promote Integrity, Economy, and Efficiency

Report Suspected Fraud, Waste, Abuse, or Mismanagement

          Complaints May be Made Anonymously




                     Inspector General

                    Library of Congress

              101 Independence Avenue, S.E.
                           LM-630

               Washington, DC 20540 -1060




   Main Telephone Number:           (202) 707-6314

               Fax Number:          (202) 707-6032

 Hotline Telephone Number:          (202) 707-6306

             Hotline Email:         oighotline@loc.gov

                   P.O. Box:        15051 S.E. Station
                                    Washington, DC 20003-9997




      Any information you provide will be held in confidence.
    However, providing your name and a means of communicating
         with you may enhance our ability to investigate.
Office of the Inspector General
101 Independence Avenue SE
Washington, DC 20540-1060
tel 202.707.6314 hotline 202.707.6306
www.loc.gov/about/oig/
